U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Oracle America, Inc. v. United States, et al., No. 20-1057
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 29,
2021. The government’s response is now due, after one extension, on April 5, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 3, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1057
ORACLE AMERICA, INC.
USA, ET AL.

R. REEVES ANDERSON
ARNOLD & PORTER KAYE SCHOLER LLP
1144 FIFTEENTH STREET
SUITE 3100
DENVER, CO 80202
303-863-1000
REEVES.ANDERSON@PORTER.COM
FREDERICK W. CLAYBROOK, JR
CLAYBROOKE LLC
700 SIXTH ST., NW
SUITE 430
WASHINGTON, DC 20001
202-250-3833
RICK@CLAYBROOKLAW.COM
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM

